              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
National Nuclear Security Administration's
Planning, Programming, Budgeting, and
Evaluation Process




DOE/IG-0614                                 August 2003
                             Department of Energy
                                 Washington, DC 20585

                                 August 5 ,          2003




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregor . Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on the "National Nuclear
                         Security Administration's Planning, Programming, Budgeting,
                         and Evaluation Process"


BACKGROUND

The National Nuclear Security Administration (NNSA) was established in March 2000 as
a semi-autonomous agency within the Department of Energy. At NNSA's inception,
management committed to implementing a Planning, Programming, Budgeting, and
Evaluation (PPBE) process, modeled on the system used by the Department of Defense.
A PPBE process uses short-term and long-term planning to define program requirements
and matches requirements with budgetary resources. NNSA's Administrator established
an overall objective that the PPBE process become the core management protocol for
NNSA.

Consistent with Congressional appropriations report language (Senate Report 107-220
and House Report 107-681), the Office of Inspector General conducted an independent
assessment of NNSA's PPBE process and structure to determine if improvements could
be made to further enhance NNSA's planning, programming, budgeting, and evaluation.
We also addressed specific questions regarding: (1) how the NNSA's PPBE process
compared to the process used by the Department of Defense; (2) whether the PPBE
process was capable of being used as a central decision-making process for resource
allocation decisions; and, (3) to what extent PPBE had been incorporated by NNSA's
management and operating contractors.

RESULTS OF AUDIT

In response to the Congress' specific questions, we found that NNSA's PPBE process:

       Was consistent with the Department of Defense process, although the two
       processes differ with regard to the way budget execution and evaluation are
       handled;



                               @     Printed with soy ink on recycled paper
                                                2



      0    Provided a mechanism for making centralized resource allocation decisions; and,

      0    Had not yet resulted in changes for existing financial and budgeting systems at the
           NNSA management and operating contractors visited because the field role had
           not been fully developed for the Fiscal Year 2004 process. In response to this
           point, NNSA noted that while PPBE does not mandate changes to integrated
           contractor budget or accounting systems, a process for "cascading" performance
           metrics is needed and is under development.

While NNSA had made significant progress towards the implementation of its PPBE
process, several areas need to be addressed before it is fully operational. For example,
we found that NNSA managers were not always clear on their roles and responsibilities;
contractor estimates that form the basis for budget estimates were not validated; and, an
independent analysis group to support the resource allocation decision process had not
been established. These issues arose because NNSA determined that PPBE development
would occur concurrently with implementation.

Given the fact that NNSA's annual budget is over $7 billion, including a diverse portfolio
of activities, the importance of having a fully functioning PPBE system cannot be
overstated. Clearly, NNSA management has made good progress on the implementation
of such a system. However, as noted in this report, there are some unresolved details
which need to be addressed. Accordingly, we recommended a series of specific actions
intended to help NNSA improve the implementation and effectiveness of its PPBE
process.

MANAGEMENT REACTION

NNSA's Associate Administrator for Management and Administration generally agreed
with the report, the conclusions reached, and the recommendations presented. NNSA
also indicated that significant progress towards resolving one of the recommendations --
concerning better communication -- had already been made. Further, NNSA proposed
several alternative methods for achieving the objectives of our recommendations. We
found these to be consistent with the underlying purpose of the recommendations.


Attachment

cc:       Deputy Secretary
          Administrator, National Nuclear Security Administration
          Director, Policy and Internal Controls Management
NATIONAL NUCLEAR SECURlTY ADMl NISTRATION'S PLANNING,
PROGRAMMING, BUDGETING, AND EVALUATION PROCESS

TABLE OF
CONTENTS



             Assessment of National Nuclear Security
             Administ ration's PIanninq, Proqramming,
             Budgetinq, and Evaluation Process

             Details of Finding .......................................................................         1
             Recommendations and Comments ...........................................
                                                                                                                6

             Appendices
             1                                                         .....................................
               . Objective, Scope, and Methodology                                                             7
             2. Prior Audit Reports ...............................................................             9
             3. Management Comments ....................................................                       10
ASSESSMENT OF NATIONAL NUCLEAR SECURITY ADMINISTRATION'S
PLANNING, PROGRAMMING, BUDGETING, AND EVALUATION PROCESS

Background                The National Nuclear Security Administration (NNSA) began
                          developing the Planning, Programming, Budgeting, and Evaluation
                          (PPBE) process in October 2000 after the Administrator set a goal of
                          using it to develop the Fiscal Year (FY) 2003 budget. However, after
                          evaluating its progress, NNSA delayed implementation of the PPBE
                          process because of concerns about the complexity of development. In
                          September 2001, NNSA's Administrator announced the implementation
                          of PPBE beginning with the FY 2004 budget cycle. He stated that
                          PPBE was designed to "redress the lack of discipline and inconsistency
                          in current processes" and to facilitate management decision-making.

                          Since beginning implementation of PPBE, NNSA has reached several
                          milestones. First, NNSA issued its first multi-year budget and program
                          plan, called the Future-Years Nuclear Security Program (FYNSP), as
                          required under Title 32. Second, NNSA used its PPBE process to
                          develop its FY 2004 budget proposal. Third, NNSA issued guidance to
                          make the process for executing the budget more consistent across the
                          organization and began implementing that portion of the process in the
                          fall of 2002. Lastly, the evaluation phase of the process was defined in
                          April 2003, and will be fully implemented next fiscal year. The
                          Department's Chief Financial Officer found NNSA's budget process
                          much improved over previous years. Similarly, the Office of
                          Management and Budget (OMB) noted that NNSA had made "early
                          progress" in improving its budget submission.

PPBE Capability to Meet   NNSA has made significant progress toward establishing a planning,
Congressional Concerns    programming, budgeting, and evaluation process that meets the basic
                          criteria set by Congress in Title 32. NNSA's goal is for the PPBE
                          process to become its core management process, replacing fragmented
                          and inconsistent processes that NNSA's constituent programs brought
                          into the new Administration when NNSA was created. The following
                          paragraphs address the specific questions posed in committee reports
                          accompanying the most recent Energy and Water Appropriations Bill.

                              Comparability of PPBE with the Department of Defense Process

                          NNSA's process is fUnctionally consistent with the Department of
                          Defense (DoD) process, although the two processes are different with
                          regard to the budget execution and evaluation processes. For example,
                          each process begins with a planning phase during which long-range,
                          mid-range, and short-range plans are compiled based on strategic,
                          program, and fiscal guidance issued by the NNSA Administrator or the
                          Secretary of Defense. Next, during the programming phase, each
                          organization determines how the plans developed in the first phase of
                          the process will be carried out by matching prioritized requirements to
Page 1                                                                        Details of Finding
         available fiscal resources. Each process provides a mechanism for
         programs to request and justify additional resources. Final
         programming decisions are documented in a program decision
         memorandum, which becomes the basis for budget development. After
         the budgeting phase, DoD's process does not directly address the budget
         execution and evaluation portions of the cycle, leaving it to each
         military service to define the budget execution and evaluation processes
         it will use. In contrast, NNSA defines specific processes and
         requirements for those phases of its PPBE process, which provide
         feedback to the next planning cycle.

                 Mechanism for Central Resource Allocation Decisions

         NNSA's PPBE process provides a mechanism for making centralized
         resource allocation decisions. In NNSA, the same managers who make
         resource allocation decisions within their own program offices also
         make resource allocation decisions between programs. After making
         allocation decisions within their program offices, NNSA's senior
         managers meet in a Programming Decision Council (Council) that hears
         program proposals from each office, including a programk justification
         for additional resources to meet requirements it is unable to fund within
         its target allocation. The Council can either decide to shift funding
         between programs to meet such requirements or determine whether the
         issue should be presented to the Administrator for resolution. The
         Administrator reviews the Council's decisions, resolves issues identified
         by the council, and makes final resource allocation decisions. While
         NNSA's Council reallocated only a small amount of funding in the FY
         2004 process, senior managers were pleased with the results of the first
         programming cycle and expect more reallocations among programs to
         occur in the future.

                      Incorporation of PPBE by M&O Contractors

         Finally, we determined that, at the two sites visited, the decision to
         make changes to the financial and budgeting systems of NNSA's M&O
         contractors could not yet be made for two reasons. First, NNSA had
         not clearly defined how the roles of the contractor field staff would
         change under PPBE. The lack of a clearly defined field role created
         concern because the contractors were not asked to prepare budget data
         for NNSA until several months after they prepared data for the
         Department. Second, the contractors' existing systems must continue to
         meet both the Department's and NNSA's requirements for budget and
         financial information, since the M&O contractors also receive funding
         from other Department programs in addition to the funding from
         NNSA. For the FY 2005 budget process, NNSA has issued further
         guidance to clarify when and how the field should provide budget
         information to both the Department and NNSA.
Page 2                                                       Details of Finding
Challenges for Effective   Although, as stated above, NNSA had made progress toward
Implementation of PPBE     implementation of PPBE, significant challenges remained in order to
                           meet the Administrator's objective of establishing PPBE as the core
                           management process for NNSA. For example, NNSA managers were
                           not always clear on their roles and responsibilities. In discussions with
                           NNSA managers, we determined that the purpose of PPBE, individual's
                           roles, and the specific requirements necessary for PPBE implementation
                           were not clearly communicated to those responsible.

                           In addition, contractor estimates, which form the basis for budget
                           estimates and resource allocation decisions, had not been validated in
                           several years. According to the Department's guidance issued with the
                           field budget call for FY 2004, operations offices were tasked with
                           validating 20 percent of each program's budget estimates. However,
                           officials at the Y-12 Site Office and the Albuquerque Service Center
                           told us they had not performed any validation activities for the FY 2004
                           budget. Similarly, NNSA headquarters officials also acknowledged
                           that they had not conducted budget validation activities. While the
                           majority of managers felt reasonably confident that the cost and budget
                           estimates they used as a basis for decisions in the FY 2004 process were
                           reliable, many of them expressed concern that budget validation did not
                           occur.

                           Finally, unlike DoD, NNSA had not established an independent group
                           tasked with reviewing program proposals, validating program cost
                           estimates, and analyzing alternatives. Most NNSA senior managers we
                           interviewed thought such an analytical group could be of value.
                           NNSA's Acting Associate Administrator for Management and
                           Administration supports the formation of an analysis group to provide
                           objective analyses and to support the Administrator, especially when
                           decisions to move resources between programs have to be made. OMB
                           also believes that an independent analytical group could improve the
                           PPBE process by providing an objective look at program proposals. In
                           addition, NNSA managers identified specific types of analyses that
                           would be useful to them or to the Administrator, such as: long-range
                           strategic analyses, realistic budget estimates, and comparisons of actual
                           program execution to plans. Several senior managers reported that
                           resource allocation decisions among program offices are likely to
                           become more frequent in future years and, for such occasions, NNSA's
                           need for independent analytical services is likely to grow.




Page 3                                                                          Details of Finding
NNSA's Strategy for      The challenges noted came about because implementation of PPBE
Implementation Created   preceded the full development of key elements necessary for the most
                         effective use and efficient operation of the process. NNSA determined
                         that, due to concerns raised by Congress about the speed of PPBE
                         execution, development would occur concurrently with implementation.
                         While implementation was in progress, development of guidance and
                         training for managers had not been completed; field-restructuring
                         activities affecting contractor oversight were underway; and the
                         establishment of an independent analysis unit had been delayed.

                         Poor communication of the purpose and requirements for implementing
                         PPBE occurred because the development of the appropriate guidance
                         and training had not yet been completed. For example, of the 19
                         Federal managers that provided comments to us on the PPBE guidance
                         and training available during the FY 2004 process, 15 identified
                         additional types of guidance that would have been useful to them, such
                         as more specific strategic policy guidance and better communication to
                         all managers about how to meet PPBE requirements. In addition, 14 of
                         the managers identified specific training needs. These needs ranged
                         from improving communication regarding the purpose of PPBE to
                         specific concerns such as how the FYNSP relates to PPBE. Even the
                         individuals designated to serve as PPBE coordinators in each program
                         office and to assist other managers with PPBE identified additional
                         training needs. The most frequently cited needs were for better
                         guidance and training on an individual's role in the process and on
                         preparing PPBE materials to meet requirements.

                         For the FY 2004 PPBE process, the PPBE Office had developed
                         informal guidance and training appropriate for each phase of the PPBE
                         just in time for each phase of the process to be implemented. In
                         addition, NNSA issued two policy letters in June and July 2002 and the
                         PPBE Office staff briefed senior managers and others on the FY 2004
                         PPBE process. However, several managers told us that the guidance
                         and briefings would have been difficult to understand without detailed
                         knowledge of the DoD process or that they were still unsure of their
                         roles in the process after attending the briefings.

                         Cost and budget estimates provided by the NNSA contractors were not
                         validated because the role of the field offices was undergoing
                         significant change during the FY 2004 PPBE process. NNSA's field
                         restructuring, which eliminated one layer of management in the field,
                         was implemented in December 2002. The PPBE Office decided to wait
                         until the restructuring was implemented before defining the field role in
                         the PPBE process to ensure that roles and responsibilities would be
                         consistent once the new field structure was established.

Page 4                                                                        Details of Finding
                         The implementation of an independent analysis unit in the PPBE Office
                         was delayed in order to give senior managers experience in using the
                         process before providing additional analytical tools. In addition, the
                         PPBE Office was not fully staffed and activities other than independent
                         analyses were determined to be higher priority during the initial
                         implementation of the PPBE process.

PPBE Can Provide         Without fill implementation, NNSA will not reap the full benefits of its
Discipline and Promote   new PPBE system. Managers cannot effectively monitor and track
Efficiency               program performance if they do not have enough information to
                         understand how performance is used in the PPBE process. In addition,
                         although PPBE is a new process that needs flexibility to adjust as
                         NNSA gains experience using it, PPBE will not meet the
                         Administrator's objective of becoming the core management process for
                         NNSA until everyone in NNSA has a clear understanding of the
                         purpose of the process, the expected benefits of using a PPBE, and how
                         to effectively participate in the process.

                         As a result of not having a formal validation process, inaccurate cost
                         and budget estimates could undermine the quality of the decisions
                         reached during PPBE's central resource allocation process. If costs are
                         understated, activities or projects may be started without sufficient
                         resources to complete them in an efficient manner. Conversely, if costs
                         are overstated, resources that could be made available to meet unfunded
                         program requirements would appear to be unavailable, which could
                         result in mission requirements not being met in a timely manner.

                         Finally, the lack of an independent analysis group could preclude
                         NNSA from making the best decisions about what programs and
                         activities to start and whether programs are affordable, not only in the
                         current budget year, but throughout the time it takes to complete them.
                         NNSA may find decisions involving reallocation of resources from one
                         program to another especially difficult without objective analysis to
                         support prioritization of the activities that support its competing
                         missions.




Page 5                                                                       Details of Finding
RECOMMENDATIONS       We recommend that the Associate Administrator for Management and
                      Administration take the following steps to improve the implementation
                      and effectiveness of the PPBE process:

                      1. Improve communication to all Federal and contractor employees
                         concerning the purpose of PPBE, the uses of and requirements for
                         PPBE documents, and employees' roles in the process through
                         additional guidance and training;

                      2. Establish a formal process for validating contractor budget
                         estimates, such as that outlined in the Department's Budget Field
                         Manual; and,

                      3. Assess management's need for independent analytical support for
                         the PPBE process and determine how to staff an analytical group
                         that possesses sufficient analytical skills to be effective, either by
                         permanent or rotational assignments.


MANAGEMENT REACTION   NNSA's Associate Administrator for Management and Administration
                      agreed with the report, the conclusions reached, and the
                      recommendations presented. NNSA reported that it had made
                      significant progress on actions related to Recommendation 1 since the
                      conclusion of the audit, including the launching of an interactive
                      Intranet site and the development of a PPBE task force. Related to
                      Recommendation 2, NNSA supports the budget validation requirements
                      contained in the Department's budget handbook and expects that the
                      NNSA Service Center will perform this validation process. Lastly, to
                      address Recommendation 3, NNSA plans to create a small advisory
                      capability; however, it will not likely be as robust as DoD's independent
                      analytical group. We have included management's comments in their
                      entirety as Appendix 3.


AUDITOR COMMENTS      NNSA's proposed actions are responsive to the audit recommendations.
                      However, an action plan detailing specific milestones with planned
                      completion dates is needed.




Page 6                                                  Recommendations and Comments
Appendix 1

OBJECTIVE     We initiated the audit in response to a Congressional request for an
              independent review of NNSA's PPBE system. The objectives were to
              assess NNSA's implementation of the PPBE process to determine if
              improvements could be made to further enhance NNSA's planning,
              programming, budgeting, and evaluation. We also answered the
              Congress' specific questions: (1) how NNSA's PPBE compared to the
              process used by DoD; (2) whether the PPBE process was capable of
              being used as a central decision-making process for resource allocation
              decisions; and (3) to what extent PPBE had been incorporated by
              NNSA's management and operating contractors.


SCOPE         The audit was performed from September 2002 to March 2003 at
              NNSA Headquarters, Washington, DC; Sandia National Laboratories,
              Albuquerque, NM; Y - 12 National Security Complex, Oak Ridge, TN;
              and NNSA's Service Center and the Sandia Site Office, Albuquerque,
              NM.


METHODOLOGY   To accomplish the audit objective, we:

                 0   Interviewed NNSA Federal staff at NNSA Headquarters, the
                     Y-12 Site Office, the Service Center, and Sandia Site Office;

                 0   Interviewed M&O contractor staff at the Y-12 Plant and Sandia
                     National Laboratories;

                 0   Reviewed documentation on the DoD PPBS process;

                 0   Evaluated policies, procedures, and other documentation related
                     to NNSA's PPBE;

                 0   Compared the DoD process to the NNSA process;

                 0   Evaluated NNSA's implementation of PPBE;

                 0   Determined the strengths and weaknesses of the PPBE system;
                     and,

                 0   Reviewed prior audit reports and other reports related to the
                     audit objective.




Page 7                                        Objective, Scope, and Methodology
I .




      Appendix 1 (continued)

                           With regard to our interviews, we judgmentally selected interviewees to
                           ensure that we talked with people at all NNSA program offices and at
                           various levels in the organization. In addition, we interviewed a variety
                           of contractor staff, including those working for Defense Programs and
                           Defense Nuclear Nonproliferation, as well as financial staff. In
                           addition, we interviewed officials directly involved in developing and
                           implementing the PPBE process.

                           The audit was performed in accordance with generally accepted
                           Government auditing standards for performance audits and included
                           tests of internal controls and compliance with laws and regulations to
                           the extent necessary to satisfy the audit objective. Accordingly, the
                           audit included reviews of NNSA's PPBE management activities.
                           Because our review was limited, it would not necessarily have disclosed
                           all internal control deficiencies that may have existed at the time of our
                           audit. As part of our review, we also evaluated the Department's
                           implementation of the Government Performance and Results Act of
                           1993. The Department's Annual Performance Plan for Fiscal Year 2003
                           did not contain specific performance data addressing PPBE. However,
                           there were objectives and goals related to PPBE. We did not rely on
                           computer-processed data to achieve our audit objective.

                           The exit conference was waived at NNSA's request.




      Page 8                                               Objective, Scope, and Methodology
                                      PRIOR AUDIT REPORTS


  Office of Inspector General Reports

    Management Challenges at the Department of Energy (DOE/IG-0538, December 2001). The
    report found that the Department has had problems managing its projects and that projects have had
    cost overruns, schedule delays, and undesirable scope reductions. Additionally, the Department
    needs to ensure it has appropriate metrics in place and uses them to manage its programs and
    activities effectively.

    The Department of Energy's Tritium Extraction Facility (DOE/IG-0560, June 2002). The report
    found that the Tritium Extraction Facility project had not made full use of project management
    controls. For example, design of the facility was not completed before beginning construction. As
    a result, the facility may not meet its baseline cost, schedule, and scope and could affect NNSA's
    ability to meet Stockpile Stewardship goals.

    Management of the Nuclear Weapons Production Infrastructure (DOE/IG-0484, September 2000).
    The audit disclosed the Department has not fully implemented a process to link workload,
    production capacity, and budget information with facility requirements.

  Other Reports

    NNSA Progress in Implementing Title 32 (GAO-02-93R, December 2001). The report found that
    NNSA did not have a clear definition of roles and responsibilities either at headquarters or in the
    field. Additionally, NNSA will have difficulty hlly implementing its new planning, programming,
    budgeting, and evaluation process by the Fiscal Year 2004 budget cycle.

    Establishing the National Nuclear Security Administration: A Year of Obstacles and Opportunities
    (Special Oversight Panel on Department of Energy Reorganization, Committee on Armed Services,
    U.S. House of Representatives, October 2000). The Panel found that NNSA is moving in the right
    direction by having its own Administrator. But the Panel feels that NNSA needs to make
    improvements including developing an integrated set of policies and practices, defining roles and
    responsibilities, and creating a plan that will integrate the security management program.

    Changing the Pentagon's Planning, Programming and Budgeting System: Phase 2 Report
    (Business Executives for National Security (BENS), 2000). This report is a follow-up to its
    Framing the Problem of PPBS (January 2000) and analyzed areas of the strategic planning process
    of the DoD PPBS that need changes. While the DoD and the private sector management systems
    do have some commonality, the report showed areas where changes in the DoD process could
    greatly enhance the PPBS. The BENS reports categorized the changes into three categories of
    structural, procedural and technical recommendations.




Page 9                                                                             Prior Audit Reports
Appendix 3



                                       Department of Energy
                                National Nuciear Security Administration
                                         Washington, UC 20585




          MEMOKANDUM FOR                Frederick D. Doggett
                                        Deputy Assistant Inspector General


          FROM :
                                          for Audit Services

                                        Michael C . Kane  #
                                        Associate Administrato
                                                                fl&
                                         for Management and Administration
                                                                           n




          S Ul3JECT:                    Comments to Draft Report on PPBF


          The Inspector General (IG), in response to congressional direction, conducted an
          independent assessment of N N S A 's Planning, Programming, Budgeting and
          Evaluation (PPBE) process and structure to determine if improvements could be
          made to further enhance NNSA's planning, programming, budgeting, and
          evaluation. The IG also answered the Congress' specific questions as to how
          hTSA's proccss compares to the process used by DOD: whether the process is
          capable of being used as a central decision-making process for resource allocation
          decisions; and, to what extent the process has been incorporated by management
          and operating contractors.

          NNSA appreciates the opportunity to have reviewed the draft report. We agree
          with the report, the conclusions reached, and the recommendations presented. We
          would like to specifically comment on the congressional question regarding the
          question about the extent to which PPBE has been incorporated by the
          management and operating contractors. The PPBE does not mandate changes to
          integrated contractor budget or accounting systems. For the contractors, the PPBE
          process is a management concept that will affect them through the ways that the
          Headquarters programs manage the programs that are executed by the contractors.
          One key concept of the PPBE process is the cascading of performance metrics that
          is linked to both the budget and contractor evaluations. This cascade is integral to
          the Planning. Budgeting and Evaluation phases of the process. NXSA's program
          elements and organizations are working with the contractors to develop a formal
          linked cascade of (various levels of) milestones and deliverables for program
          management and performance assessment. A key indicator as to whether the
          PPBE methodology has been incorporated into the contractor's proccsses would
          be the extent to which program plans and contractor performances are fully
          integrated into this cascade, and whether contractor management and performance
          systems are linked to support measures established by Headquarters.




Page 10                                                                          Management Comments
Appendix 3 (continued)


                                                                                               2

          NNSA concurs with the recornmendatioils i n the draft report. Since the audit was
          concluded, we have made significant progress with actions related to the
          recommendation to improving communications. On April 3,2003, the PPBE
          Intranet site was activated. This sitc is available to all IWSA Federal employecs
          and NNSA’s contractor personnel in the resource areas. The menu for the site is
          attached. information contained on the site includes overarching policy gpidance
          in the five published Business Operating Policy Letters; specific implementation
          guidance for each phase of the process, including requirements and formats for
          deliverables; statistical and status data; a calendar of events; legislative data;
          history; and other usefbl links.

          As to etnployees’ roles in the process, guidance is contained in the five Business
          Operating Policy Lctters for PPBE, as stated. Implementing the Policy Letters for
          each phase except Budget was completed and posted to the Intranet as of May
          2003. However, it must be noted that in recognition of the strong and diverse line
          program components within NNSA, the corporate process sets firm corporate
          requirements and schedules, but allows each line program flexibility in choosiiig
          the means to meet the requirements. We do not seek to standardize internal
          aspects unless necessary to address problettls or attain major efficiencies.

          Training has been provided by the PPBE staff. Training on the Programming
          process and dcliverablcs was offcrcd this year to each Headquarters program
          office prior to and during the FY 2005-2009 Programming phase. Three one-hour
          training sessions on the PPBE Evaluation process, performance measurement and
          the OMB PART assessment have been delivered to most NXSA employees
          directly involved in these efforts. Of necessity, due to ongoing personnel and
          funding limitations, training efforts have been in-house and limited to what the
          responsible Eleadquarters element (NA-62) Federal employees can develop and
          provide. The PPBE office is participating in a task force to develop roles,
          responsibilities and training for program managers, and the office will assure that
          appropriate PPBE training is included as this effort rolls out to field elements.

          h 3 S A believes that the second recommendation to establish a forrnal process for
          validating contractor budget estimates, such as that outlined in the Department’s
          Field Budget Manual, may not be needed. NNSA has not eliminated the recurring
          budget validation rcquircmcnts contained in the Department’s budget handbook as
          evidenced by the April 4,2003, NNSA Cover to the DOE Unieall. NNSA
          supports the Chief Financial Officer’s requirement to validate about 20 percent of
          the budget annually, and we suggested that this 20 percent include the programs
          being reviewed by the OMB PART each year. We expect that budget validation
          will be performed by the NNSA Service Center and the non-aligned Site Offices;
          information will be available prior to submission of the budget request to OMB,
          which i s consistent with SNSA’s needs.




Page 11                                                                         Management Comments
Appendix 3 (continued)



                                                                                                   3

          Also, in the past six months, the Service Center undertook a special “For Cause”
          analysis of selected Safeguards and Security program activities which included
          validation of cacli site’s charging of these activitics to the direct versus allocable
          accounts at the contractors. We will continue to develop these capabilities for
          independent validation of contractor financial and budgeting activities as the
          reengineered organization matures and is fully staffed o w r the next few years.
          Howeser, budget validation remains a fbndamental DOE responsibility, and they
          will continue to provide validations for non-hSS-4 activities.

          While NXSA agrees with the necd for indcpcndent analytical support as part of a
          robust PPRE process as mentioned in the third rcconimendation, the issue is how
          to create this new capability in the ncar tertn while the PPBE organization is
          functioning under the same resource restrictionsilimitations that is currently facing
          all of NNSA. For the FY 2005 Progrzamming process, the first small step in
          independent analysis of the program proposals was achicved by having
          experienced sertior budget and program analysts ask written “clarifqing questions”
          related to the line program proposals. This first small step is significant, but we
          do not believe that it meets the spirit of this recommendation. Over time, we w l l
          create a small advisory capability, but we do not iritend to create a DoD-like
          PA&E. Due to hiring constraints, this will not likcly be realized before the end of
          calendar 2005 when all downsizing and rcengineeting are expected to be
          complete. In the meantime. thcre are several options that we will explore to
          obtain studies and analyses to be used beginning with the FY 2006-2010 Planning
          and Programming processes: (1) utilize in-house, cross-functional NNSA teams;
          (2) request studies from DOE staff orsanizations, and (3) lcveragc analyses done
          by DoD/PA&E.

          Should you have my questions, please contact Richard Speiclel, Director, Policy
          and Internal Controls Management. fle may be reached at 202-585-5009.

          Attachment




Page 12                                                                           Management Comments
                                                                              IG Report No.: DOE/IG-0614

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
    report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                    Office of Inspector General (IG-1)
                                          Department of Energy
                                         Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http:llwww.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
